uase: /:ib-cv-U0023-KKC-EBA Doc #: 77 Filed: 07/08/21 Page: 1 of 1 - Page ID#: 319

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION
PIKEVILLE
ELLIS KEYES,

CIVIL NO. 7:18-CV-23-KKC

Plaintiff,
v.

ORDER

EDISON BANKS,
Defendant.

*** •k'k'k

In accordance with the June 15, 2021 order of the Sixth Circuit Court of Appeals, the
Court hereby ORDERS that the complaint in this matter is DISMISSED for lack of subjectmatter jurisdiction and this matter is STRICKEN from the Court’s active, docket.
Dated July 08, 2021

.y

ll

KD

MEM

f KAREN K. CALDWELL
f

UNITED STATES DISTRICT JUDGE
EASTERN DISTRICT OF KENTUCKY

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

No: 20-6034

Filed: July 07, 2021
ELLIS KEYES
Plaintiff - Appellant
v.
EDISON BANKS
Defendant - Appellee

MANDATE
Pursuant to the court's disposition that was filed 06/15/2021 the mandate for this case hereby
issues today.

COSTS: None

Case: 7:18-cv-00023-KKC-EBA Doc #: 75 Filed: 06/15/21 Page: 1 of 4 - Page ID#: 312

NOT RECOMMENDED FOR PUBLICATION

FILED

No. 20-6034
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ELLIS KEYES
Plaintiff-Appellant,
v.

EDISON BANKS,
Defendant-Appellee.

Jun 15, 2021
DEBORAH S. HUNT, Clerk

)
)
)

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
KENTUCKY

)
)

ORDER

Before: SUTTON, Chief Judge; NORRIS and SILER, Circuit Judges.

Ellis Keyes, a pro se Kentucky litigant, appeals the district court’s grant of summary
judgment to the defendant, Edison Banks, the Commonwealth’s Attorney for the 47th Judicial
Circuit of Kentucky in Letcher County, in his civil suit alleging that he was unconstitutionally
removed from the ballot in an election for that office. This case has been referred to a panel of the
court that, upon examination, unanimously agrees that oral argument is not needed. See Fed. R.
App. P. 34(a).
Section 100 of the Kentucky Constitution provides, “No person shall be eligible to the
office of Commonwealth’s Attorney unless he shall have been a licensed practicing lawyer four
years.” When Keyes tried to run for Commonwealth’s Attorney, Banks filed a petition in state
court under Kentucky Revised Statutes § 118.176 to remove Keyes’s name from the ballot because
he was not and has never been a licensed attorney. Keyes filed this suit in federal court, invoking

Case: 7:18-cv-00023-KKC-EBA Doc #: 75 Filed: 06/15/21 Page: 2 of 4 - Page ID#: 313
No. 20-6034
-2-

the Fourteenth Amendment’s guarantee of due process and seeking an emergency order to stay or
dismiss those proceedings or to grant any other proper relief. The state trial court ultimately
granted Banks’s petition and prohibited Keyes’s name from appearing on the ballot.
The parties continued litigating this case in federal court and both filed motions for
summary judgment. A magistrate judge recommended denying Keyes’s motion and granting
Banks’s. Keyes v. Banks, No. 7:18-CV-23-KKC, 2020 WL 6494988 (E.D. Ky. Apr. 22, 2020)
(recommended disposition). The magistrate judge determined that Keyes had not “shown that the
removal of his name violated his procedural due process rights because he could not show a
property or liberty interest in running for office as the Commonwealth[’s] Attorney,” and that he
had not established a substantive-due-process violation because he “could not show that he was
denied a fundamental right when his name was taken off of the ballot for not meeting the
requirements set forth in Section 100 of the Kentucky Constitution.” Id. at *7.
After Keyes filed objections, the district court adopted the magistrate judge’s report and
recommendation (except for a slightly erroneous statement about the timeline of events, which the
district court corrected) and granted summary judgment to Banks. Keyes v. Banks, No. 7:18-CV23-KKC, 2020 WL 5229160 (E.D. Ky. Sept. 2,2020). In his objections, Keyes argued that he was
pressing not just a due-process claim but also claims under “broad and universal concepts of
constitutional law,” including the right to vote under the Fifteenth Amendment, Article I’s bar on
letters of marque and reprisal, and the Fourteenth Amendment’s guarantee of equal protection.
The district court noted that it had reviewed an audio tape of a status conference held by the
magistrate judge in which the judge tried to clarify what claims Keyes was raising, and Keyes
confirmed that he was asserting violations of his substantive- and procedural-due-process rights.
Keyes, 2020 WL 5229160, at * 1. Keyes maintained that the state did not have the power to license
the practice of law, that the right to hold office is a liberty interest protected by the Fourteenth
Amendment, and that he suffered discrimination in violation of the Equal Protection Clause. But
the district court held that he had failed to make sufficient allegations to assert a violation of the
right to vote or the guarantee of equal protection. Keyes, 2020 WL 5229160, at * 1.

’

Case: 7:18-cv-00023-KKC-EBA Doc #: 75 Filed: 06/15/21 Page: 3 of 4 - Page ID#: 314
No. 20-6034
-3 On appeal, Keyes argues that “Contrary to Judgement [sic] that Appellant is not licensed,
the Bar Certificate is not an exclusive License to practice law or we would have an unconstitutional
aristocracy”; that the requirement in § 100 of the Kentucky Constitution was applied in violation
of the Fourteenth Amendment; that the district court erred in refusing to enter default against
Banks; and that his removal from the ballot violated the rights to vote, speech, association, and
due process.
Although the issue of standing was not raised, because it concerns our subject-matter
jurisdiction, we can address the issue on our own. See Bench Billboard Co. v. City of Cincinnati,
675 F.3d 974, 983 (6th Cir. 2012). To establish Article III standing, a plaintiff must show that he
suffered an injury-in-fact, that there is a causal connection between his injury and the defendant’s
conduct, and that his injury will be redressed by a decision in his favor. See Lujan v. Defs. of
Wildlife, 504 U.S. 555, 560-61 (1992).
Keyes sued Banks, who filed the petition to have his name removed from the ballot. But
the state court was the entity that enforced the state law that Keyes ultimately asserted was
unconstitutional. And Banks’s petition sought an order enjoining the Kentucky State Board of
Elections and the Secretary of State as well as the Letcher County Board of Elections and its chair
in order to prevent Keyes’s name from appearing on the ballot and votes from being counted for
him. Banks has no authority over the enforcement of the Kentucky constitutional provision or the
state election. A favorable decision in this case against Banks, then, would not redress Keyes’s
alleged injury. He “sued the wrong party.” Binno v. Am. Bar Ass ’n, 826 F.3d 338, 345 (6th Cir.
2016). Therefore, Keyes lacks Article III standing, and the district court lacked subject-matter
jurisdiction.

Case: 7:18-cv-00023-KKC-EBA Doc #: 75 Filed: 06/15/21 Page: 4 of 4 - Page ID#: 315
No. 20-6034
-4Accordingly, we VACATE the district court’s judgment and REMAND with instructions
to dismiss the complaint for lack of jurisdiction.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 7:18-cv-00023-KKC-EBA Doc #: 69 Filed: 09/02/20 Page: 1 of 1 - Page ID#: 298
\

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION
PIKEVILLE
ELLIS KEYES,

CIVIL NO. 7:18-CV-23-KKC

Plaintiff,
v.

JUDGMENT

EDISON BANKS,
Defendant.

In according with the opinion and order entered on this date the Court hereby ORDERS
and ADJUDGES as follows:
1) defendant Edison Banks’ motion for summary judgment (DE 62) is GRANTED;
2) judgment is entered in favor of defendant Edison Banks on all claims asserted in this
action;
3) this judgment is FINAL and APPEALABLE; and
4) this matter is STRICKEN from the Court’s active docket.
Dated September 02, 2020

KAREN K. CALDWELL
UNITED STATES DISTRICT JUDGE
EASTERN DISTRICT OF KENTUCKY

Case: 7:18-cv-00023-KKC-EBA Doc #: 68 Filed: 09/02/20 Page: 1 of 4 - Page ID#: 294

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION
PIKEVILLE
ELLIS KEYES,

CIVIL NO. 7:18-CV-23-KKC

Plaintiff,
v.

OPINION AND ORDER

EDISON BANKS,
Defendant.

The plaintiff and defendant have filed cross-motions for summary judgment. (DE 62, 63.) The
magistrate judge has filed a recommended disposition, DE 66, in which he recommends that the
motion by defendant Edison Banks be granted and that the motion by plaintiff Ellis Keyes be denied.
Plaintiff Keyes has filed objections (DE 67) to the magistrate judge’s recommendation. The Court
will make a de novo determination of those portions of the recommendation to which Keyes makes
specific objections. 28 U.S.C.A. § 636 (b)(1); Miller v. Currie, 50 F.3d 373, 380 (6th Cir. 1995). A
general objection to a magistrate's report is not treated as an objection at all. Id.
As background, Keyes asserts that he was seeking election to the office of Letcher County
Commonwealth Attorney and that the incumbent Commonwealth Attorney - Defendant Edison
Banks — attempted to have Keyes’ name removed from the ballot because Keyes is not a licensed
attorney. (DE 1, Complaint at 1-2.) The Kentucky Constitution provides, “No person shall be eligible
to the office of Commonwealth's Attorney unless he shall have been a licensed practicing lawyer four
years.” Ky. Const. § 100.
Keyes concedes he is not a licensed attorney. He states he is “an ordinary person who practices
law. . . a lay man of common law.” (DE 1, Complaint at 3.) Keyes filed this action, asking for the
Court to “stay. . . the removal of name from ballot dismissed,” and “such other further relief deemed

Case: 7:18-cv-00023-KKC-EBA Doc #: 68 Filed: 09/02/20 Page: 2 of 4 - Page ID#: 295

just and proper.” (DE 1, Complaint at 9.) In a later filing. Keyes asked for a stay of “Letcher Circuit
Court Order 2018-CI-32.” (DE 12, Demand.)
Keyes first objects to the magistrate judge’s determination regarding the claims that he asserts.
The magistrate judge states in his recommendation that, at a status conference, Keyes “clarified that
he is only asserting substantive and procedural due process violations against Banks for having his
name taken off the ballot.” In his objections, Keyes states he never said this. He argues that he asserts
broad and universal concepts of constitutional law.” (DE 67 at 2.) He mentions the right to vote
contained in the 15th Amendment to the U.S. Constitution and the Equal Protection Clause.
This objection is OVERRULED.
The Court has reviewed an audio recording of the December 9, 2019 status conference. (DE 58,
Minute Entry.) The magistrate judge’s primary objective at the conference was to determine precisely
what claims Keyes asserts. The magistrate judge noted that the United States Court of Appeals for
the Sixth Circuit had determined that Keyes’ “raises a federal question under the Fourteenth
Amendment.” See DE 14. The magistrate judge asked Keyes at the status conference not once, but
twice, whether he was indeed asserting claims for substantive and procedural due process violations
under the Fourteenth Amendment. Both times Keyes confirmed that these were the claims he was
asserting. He never mentioned any other claim.
Further, Keyes has failed to make sufficient allegations to assert a violation of either the right to
vote contained in the Fifteenth Amendment or of the Equal Protection clause. Thus, the magistrate
judge correctly concluded that Keyes asserts only due process violations under the 14th Amendment.
Keyes also objects to the magistrate judge’s determination that Keyes verified at the status
conference “that he is asserting a federal cause of action that has not yet been adjudicated.” DE 66 at
5. This objection is also OVERRULED. The statement was accurate. Keyes stated at the status
conference that, with this federal action, he asserts that the defendant violated his substantive and
2

Case: 7:18-cv-00023-KKC-EBA Doc #: 68 Filed: 09/02/20 Page: 3 of 4 - Page ID#: 296

procedural due process rights. That claim had clearly not been adjudicated at the time of the status
hearing. The magistrate judge made this finding in ruling in Keyes’ favor on Banks’ argument that
Keyes’ claims are barred under the doctrines of res judicata, collateral estoppel, and Rooker-Feldman.
The magistrate judge was distinguishing this federal action from the claims that were litigated in state
court.
Keyes objects to the magistrate judge’s finding that, “[i]n response to striking his name from the
ballot, Keyes filed this instant action and then also appealed the state trial court’s ruling.” (DE 66 at
6.) Keyes argues that this federal action was filed prior to the state court ruling. (DE 67 at 2.) This
objection is SUSTAINED. Keyes filed this action on February 23, 2018. The Letcher Circuit Court
order that prohibited Keyes’ name from appearing on the ballot was not entered until March 13, 2018
(DE 24-1). This makes no difference, however, to the outcome of the case. Again, in making this
finding, the magistrate judge was simply distinguishing this federal action from the state court action
for purposes of rejecting Banks’ argument that the Rooker-Feldman doctrine bars Keyes’ claim.
Similarly, Keyes objects to the magistrate judge’s finding that, “Keyes has opposed Banks’
petition to have him removed from the ballot by appealing the state court’s decision and filing a
federal cause of action in federal court.” (DE 66 at 8-9). Keyes argues that magistrate judge did not
correctly state the “sequence of events.” This objection is OVERRULED.
The magistrate judge made this statement in ruling in Keyes’ favor on Banks’ argument that the
Court should find Keyes a vexatious litigator and prohibit him from filing any further complaints
regarding the removal of his name from the ballot. With the statement in question, the magistrate
judge was not attempting to recount the sequence of the federal and state court actions. Nor was the
sequence of events relevant to the magistrate judge’s point. Instead, the magistrate judge was merely
explaining why he did not agree that Keyes had filed repetitive and frivolous actions relating to the

3

Case: 7:18-cv-00023-KKC-EBA Doc #: 68 Filed: 09/02/20 Page: 4 of 4 - Page ID#: 297

removal of his name from the ballot. The magistrate judge was noting that Keyes pursued relief only
in this Court and in his appeal of the state-court ruling.
Keyes makes no further specific objections to the magistrate judge’s recommendation.
Accordingly, the Court hereby ORDERS as follows:
1) the magistrate judge’s recommended disposition (DE 66) is ADOPTED as the opinion of the
Court with the exception of the magistrate judge’s finding that, “[i]n response to striking his
name from the ballot, Keyes filed this instant action and then also appealed the state trial
court’s ruling.” (DE 66 at 6.) Instead, the Court finds that Keyes filed this action before the
Letcher Circuit Court entered an order that prohibited Keyes’ name from appearing on the
ballot. That finding makes no difference in the outcome of the magistrate judge’s
recommendation;
2) Banks’ motion to dismiss (DE 55) is DENIED;
3) Banks’ motion for summary judgment (DE 62) is GRANTED; and
4) Keyes’ motion for summary judgment and motion to set a trial date (DE 63) are DENIED;
and
5) judgment will be entered consistent with this opinion.
Dated September 02, 2020

i
-

KAREN K. CALDWELL
UNITED STATES DISTRICT J UDGE
EASTERN DISTRICT OF KENTUCKY

4

Case: 7:18-cv-00023-KKC-EBA Doc #: 66 Filed: 04/22/20 Page: 1 of 15 - Page ID#: 276

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION at PIKEVILLE
CIVIL ACTION NO. 7:18-CV-23-KKC
ELLIS KEYES,

v.

PLAINTIFF,
RECOMMENDED DISPOSITION

EDISON BANKS,

DEFENDANT.

There are three pending matters before the Court. First, Edison Banks filed a renewed
motion to dismiss and bar prospective filings by Ellis Keyes. [R. 55], Second, after this Court held
a status hearing to clarify the issues and directed the parties to file dispositive motions within thirty
days, Keyes and Banks filed cross-motions for summary judgment. [R. 62-63], Third, in Keyes’
cross-motion for summary judgment, he also asks the Court to set a trial date. [R. 63]. With the
issues being fully briefed and ripe for review, this Court RECOMMENDS that: (1) Banks’ motion
to dismiss and bar prospective filings be denied; (2) Banks’ motion for summary judgment be
granted; and (3) Keyes’ motion for summary judgment and request to set a trial date be denied.
I.

Facts and Procedural History

The facts of this case are not in dispute. The Sixth Circuit summarized the pertinent facts
of this case as follows:
Ellis Keyes, a pro se Kentucky litigant, was an aspiring candidate for the Office of
the Commonwealth’s Attorney for Letcher County, Kentucky. The incumbent
Commonwealth’s Attorney filed a motion in Letcher County Circuit Court to
remove Keyes’s name from the ballot, arguing that Keyes lacked the necessary
qualifications because he was not a licensed attorney. In February 2018, Keyes filed
a motion in the United States District Court for the Eastern District of Kentucky
1 of 15

Case: 7:18-cv-00023-KKC-EBA Doc#: 66 Filed: 04/22/20 Page: 2 of 15 - Page ID#: 277

asking that court to stay or dismiss his then-pending state-court proceeding, as well
for “such other further relief deemed just and proper.” Invoking 28 U.S.C. § 2283,
the district court dismissed Keyes’s action for lack of jurisdiction to provide the
requested relief. On appeal, this court remanded the case to the district court for
further proceedings. Keyes v. Banks, NO. 18-5213 (6th Cir. Sept. 26, 2018).
[R. 48 at p. 1], As its opinion indicates, the Sixth Circuit first considered the District Court’s
dismissal ofKeyes’ claims for lack of subject-matter jurisdiction. [R. 7], On September 26, 2018,
the Sixth Circuit found that the District Court has subject-matter jurisdiction to consider Keyes’
claims, which it construed broadly as a federal question under the Fourteenth Amendment. [R. 14].
Before filing his Answer, Banks filed a motion to dismiss and bar prospective filings by
Keyes. [R. 27]. Following the District Court’s denial of Banks’ motion to dismiss, he now renews
his request. [R. 29, 55]. After carefully reviewing the arguments raised by Banks, the undersigned
held a status hearing to clarify the basis ofKeyes Fourteenth Amendment claim. [R. 58-59]. At
the status hearing, Keyes clarified that he is only asserting substantive and procedural due process
violations against Banks for having his name taken off the ballot. [R. 60]. The parties were then
directed to file any dispositive motion within thirty days. [Id] Both parties filed cross-motions for
summary judgment and stand ripe for consideration. [R. 62-63]. In his cross-motion for summary
judgment, Keyes also filed his fourth motion to set a jury trial.1 [R. 63].
II.

Standard of Review

“A party may move for summary judgment, identifying each claim or defense — or the
part of each claim or defense — on which summary judgment is sought.” Fed.R.Civ.P. 56(a). “[A]
party seeking summary judgment always bears the initial responsibility of informing the district
court of the basis for its motion.” Celotex Corp. v. Catrett, All U.S. 3.17, 323 (1986). Such a

1 See [R. 11, 15, 53, 63],

2 of 15

Case: 7:18-cv-00023-KKC-EBA Doc #: 66 Filed: 04/22/20 Page: 3 of 15 - Page ID#: 278

motion then “requires the nonmoving party to go beyond the pleadings and by [his] own affidavits,
or by the depositions, answers to interrogatories, and admissions on file, designate specific facts
showing that there is a genuine issue for trial.” Id. at 324 (internal quotation marks omitted). This
is so because “[o]ne of the principal purposes of the summary judgment rule is to isolate and
dispose of factually unsupported claims or defenses.” Id. at 323-24. To avoid summary judgment,
the non-movant must come forward with evidence on which a jury could reasonably find in its
favor. Anderson v. Liberty Lobby, Inc., All U.S. 242, 252 (1986). The following factors bear
consideration by a court when entertaining a motion for summary judgment:
1. Complex cases are not necessarily inappropriate for summary judgment.
2. Cases involving state of mind issues are not necessarily inappropriate for
summary judgment.
3. The movant must meet the initial burden of showing “the absence of a genuine
issue of material fact” as to an essential element of the non-movant's case.
4. This burden may be met by pointing out to the court that the respondent, having
had sufficient opportunity for discovery, has no evidence to support an essential
element of his or her case.
5. A court should apply a federal directed verdict standard in ruling on a motion
for summary judgment. The inquiry on a summary judgment motion or a
directed verdict motion is the same: whether the evidence presents a sufficient
disagreement to require submission to a jury or whether it is so one-sided that
one party must prevail as a matter of law.
6. As on federal directed verdict motions, the “scintilla rule” applies, i.e., the
respondent must adduce more than a scintilla of evidence to overcome the
motion.
7. The substantive law governing the case will determine what issues of fact are
material, and any heightened burden of proof required by the substantive law
for an element of the respondent's case, such as proof by clear and convincing
evidence, must be satisfied by the respondent.

3 of 15

Case: 7:18-cv-00023-KKC-EBA Doc #: 66 Filed: 04/22/20 Page: 4 of 15 - Page ID#: 279

8. The respondent cannot rely on the hope that the trier of tact willTtisbelleve the:
movant's denial of a disputed fact, but must “present affirmative evidence in
order to defeat a properly supported motion for summary judgment.”
9. The trial court no longer has the duty to search the entire record to establish that
it is bereft of a genuine issue of material fact.
10. The trial court has more discretion than in the “old era” in evaluating the
respondent's evidence. The respondent must “do more than simply show that
there is some metaphysical doubt as to the material facts.” Further, “[wjhere the
record taken as a whole could not lead a rational trier of fact to find” for the
respondent, the motion should be granted. The trial court has at least some
discretion to determine whether the respondent's claim is “implausible.”
Street v. J.C. Bradford & Co., 886 F.2d 1472, 1479-80 (6th Cir. 1989).
“The court shall grant summary judgment if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R.
Civ. P. 56(a); Celotex, All U.S. at 324. When reviewing a motion for summary judgment, “this
Court must determine whether ‘the evidence presents a sufficient disagreement to require
submission to a jury or whether it is so one-sided that one party must prevail as a matter of law.’”
Pattonv. Bearden, 8 F.3d 343,346 (6thCir. 1993) (quotingAnderson, All U.S. at251-52). “[T]he
existence of a mere scintilla of evidence in support of the non-moving party’s position will not be
sufficient; there must be evidence on which the jury could reasonably find for the non-moving
party." Sutherland v. Mich. Dept, of Treasury, 344 F.3d 603, 613 (6thCir. 2003) (citing Anderson,
All U.S. at 251). The evidence, all facts, and any inferences that may permissibly be drawn from
the facts must be viewed in the light most favorable to the nonmoving party. Matsushita Elec.
Indus. Co., Ltd. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986). “Where the record taken as a
whole could not lead a rational trier of fact to find for the nonmoving party, there is no genuine
issue for trial.” Id. (citing First Nat 7 Bank ofAriz. v. Cities Serv. Co., 391 U.S.253, 288 (1968)).

4 of 15

Case: 7:18-cv-00023-KKC-EBA Doc #: 66 Filed: 04/22/20 Page: 5 of 15 - Page ID#: 280

In such a case, summary judgment is warranted. Alabama v. JSlorth~Caiolina, 560 U.B.JB£T-344
(2010); Celotex, 477 U.S. at 322; Anderson, All U.S. at 248.
III.

Analysis

Renewed Motion to Dismiss and Bar Prospective Filings:
In his renewed motion, Banks argues that Keyes’s claims should be dismissed because: (1)
Keyes is barred from re-litigating factual and legal issues already decided in state court; and (2)
Keyes is denied under the doctrine of Rooker-Feldman by requesting a federal court, other than
the United States Supreme Court, to directly review the state court decision. [R. 55]. Banks also
asks this Court to bar Keyes from prospective filings concerning this matter. In response at the
status hearing, Keyes verified that he is asserting a federal cause of action that has not yet been
adjudicated. [R. 60],
1. Res Judicata and Collateral Estoppel
First, Banks argues that Keyes’ claims are barred under theories of res judicata and
collateral estoppel. [R. 55], “Under res judicata, a final judgment on the merits of an action
precludes the parties or their privies from relitigating issues that were or could have been raised in
that action. "Allen v. McCurry, 449 U.S. 90, 94 (1980). In regard to collateral estoppel, “a federal
court must give to a state-court judgment the same preclusive effect as would be given that
judgment under the law of the State in which the judgment was rendered.” Migra v. Warren City
Sch. Dist. Bd. ofEdu., 465 U.S. 75, 81 (1984). However, a party may choose to reserve its federal
claims for federal court, while pursing state claims in state court. England v. Louisiana State Bd.
of Medical Examiners, 375 U.S. 411 (1964). This will allow a plaintiff to pursue a federal action
on only federal law claims without resjudicata barring those claims, even though they could have
5 of 15

Case: 7:18-cv-00023-KKC-EBA Doc #: 66 Filed: 04/22/20 Page: 6 of 15 - Page ID#: 281

been heard in state court. Id.
Here, Banks argues conclusively that Keyes’ federal claim should be barred because he is
attempting to relitigate claims that have already been decided in state court. [R. 55 at p. 3], This
argument is unpersuasive because this action involves an independent assertion by Keyes, alleging
that he was denied procedural and substantive due process guaranteed by the Fourteenth
Amendment to the United States Constitution when his name was stricken from the ballot. [R. 1],
The facts show that Banks filed a petition to remove Keyes from the ballot alleging he did not
meet the requirements, which led the Letcher Circuit Court to subsequently grant his request. [Id.
at p. 1-2]. In response to striking his name from the ballot, Keyes filed this instant action and then
also appealed the state trial court’s ruling. [Id. at 2], Although Keyes could have brought his claims
of substantive and procedural due process to state court, his failure to assert this claim on appeal
does not preclude him from asserting these claims in federal court now. See e.g., Louisiana State
Bd. ofMedical Examiners, 375U.S.411. Thus, Banks has not presented any evidence to show that
the same claim or issue was litigated in state court. Therefore, Keyes’ claims are not barred by res
judicata or collateral estoppel.
2. The Rooker-Feldman Doctrine
Second, Banks argues that this Court does not have the authority to review Keyes’ claim
because federal courts, other than the United States Supreme Court, cannot sit in direct review of
a state court’s decision unless Congress grants this power. [R. 55 at p. 4-5]. The Rooker-Feldman
doctrine creates a narrow exception that says a party aggrieved by a state-court decision cannot
appeal that decision to a federal district court but must instead petition for a writ of certiorari from
the United States Supreme Court. Rookery. Fidelity Trust Co., 263 U.S. 413 (1923); see also
6 of 15

case: L18-cv-00023-KKC-EBA Doc #: 66 Filed: 04/22/20 Page: 7 of 15 - Page ID#: 282

Marshall v. Bowles, 92 Fed.Appx. 283 (6th Cir. 2004).
In Marshall, the plaintiff pursued an action against a state domestic relations judge,
asserting that the judge violated her due process rights through various orders and rulings during
the proceedings. Marshall, 92 Fed.Appx. at 284. The Sixth Circuit held that “[a] fair reading of
the complaint reveals that [the plaintiff s] federal case is an impermissible appeal of state court
judgments as it raises specific grievances regarding decisions of’ the state court. Id. For this reason,
the Sixth Circuit held that the district court lacked subject-matter jurisdiction under the RookerFeldman doctrine. Id.
Here, unlike Marshall, the facts do not support Banks’ conclusion that this is essentially
an appeal of the Letcher Circuit Court. Instead, the facts show that after Keyes was denied the
ability to be on the ballot, he filed this action in federal court, asserting violations of procedural
and substantive due process stemming from this denial. Thus, Keyes’ request is not asking this
Court to reconsider the Letcher Circuit Court’s denial based on the Kentucky Constitution; instead,
it is asking this Court whether this denial violated his Fourteenth Amendment rights under the
United States Constitution. Therefore, since Keyes is asserting an independent claim under the
Fourteenth Amendment, Keyes’ federal claim is not barred under the Rooker-Feldman doctrine.
3. Banks’Request to Bar Prospective Filings By Keyes Against Him
Third, Banks also requests that Keyes be barred from prospective filings concerning this
matter. [R. 55 at p. 4-5], He states that Keyes, as a pro se plaintiff, “can only be seen as repetitious
and frivolous” because Keyes “has unsuccessfully attempted to litigate and re-litigate the matter
in each and every court made available to him.” [Id.] In essence, it appears that Banks is asking
this Court to find Keyes to be a vexatious litigator.

7 of 15

uase: /:iB-cv-uuuz3-KK(J-tBA Doc #: 66 Filed: 04/22/20 Page: 8 of 15 - Page ID#: 283

According to the Sixth Circuit, when it is clear that a plaintiff is a vexatious litigant whohas filed multiple complaints concerning the same incident, the district court can enter an order
requiring leave before the plaintiff files further complaints. See Filipas v. Lemons, 835 F.2d 1145,
1146 (6th Cir. 1987); Feathers v. Chevron U.S.A., Inc., 141 F.3d 264, 269 (6th Cir. 1998). The
district court can also restrain prospective filings when there is “a recognized pattern of repetitive,
frivolous, or vexatious cases within that category ” Feathers, 141 F.3d at 269 (citing Woodv. Santa
Barbara Chamber of Commerce, Inc., 705 F.2d 1515, 1524 (9th Cir. 1983) (“[t]he general pattern
of litigation in a particular case may be vexatious enough to warrant an injunction in anticipation
of future attempts to relitigate old claims.”)).
Here, Banks does not present sufficient evidence to warrant imposing such relief. First, as
this Court found in parts 1 and 2 above, while Keyes’ claim stems from his denial to be on the
ballot to run for Commonwealth Attorney, this case involves the constitutionality of the state
court’s decision pursuant to the United States Constitution. Banks’ mere assertion that Keyes has
been unsuccessful in all of his attempts to litigate and re-litigate this issue fails to explain how
principles such as resjudicata and collateral estoppel would riot serve as more appropriate avenues
should Keyes seek to litigate this matter further. See Wood, 705 F.2d at 1525 (if injunctions against
plaintiffs are used “too freely or couched in overly broad terms, injunctions against future litigation
may block free access to the courts. Such access not only ensures protections of privately created
commercial interests, it also serves as the final safeguard for vitally important constitutional
rights.”). Unlike Feathers, there is no concern of multiple parties filing multiple meritless claims.
Feathers, 141 F.3d at 269. Instead, the facts show that Keyes has opposed Banks’ petition to have
him removed from the ballot by appealing the state court’s decision and filing a federal cause of
8 of 15

uctijt;: ^ :j.a-cv-uuu^d-Ki\u-tbA

uoc #: bb Hied: 04/22/20 Page: 9 of 15 - Page ID#: 284

. /

action in federal court. Therefore, the circumstances do not warrant barring Keyes-prospective—
filings.
In sum, Banks presented no evidence to warrant dismissing this action for being litigated
below or for being an appeal of the state court’s decision. Nor has Banks provided a sufficient
legal or factual basis for barring Keyes from filing any prospective claims against him concerning
this action. Therefore, it is recommended that Banks’ motion to dismiss be denied.
Cross-Motions for Summary Judgment:
Keyes’s current claim is brought under 42 U.S.C. § 1983, raising a federal question under
the Fourteenth Amendment, alleging he was deprived of procedural and substantive due process
when his name was removed from the ballot. [R. 1, 14]. There is no dispute of facts between the
parties. Thus, the only issue before this Court is whether either Keyes or Banks are entitled to
judgment as a matter of law based on the undisputed facts.
The Fourteenth Amendment provides that “[n]o state shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United States; nor shall any state
deprive any person of life, liberty, or property without due process of law.” U.S. Const, amend.
XIV, § 1. As the Sixth Circuit has explained, “substantive due process prohibits the government’s
abuse of power or its use for the purpose of oppression, and procedural due process prohibits
arbitrary and unfair deprivations of protected life, liberty, or property interests without procedural
safeguards.” Howard v. Grinage, 82 F.3d 1343, 1350 (6th Cir. 1996).
Title 42, United States Code, Section 1983 does not create any substantive rights, but it
instead provides a vehicle to seek redress for violations of constitutional rights, like the Fourteenth
Amendment. See Lugar v. Edmonson Oil Co., 457 U.S. 922, 924 (1982). Specifically, Section
9 of 15

oase: /:±a-cv-uuu*3-KKU-tbA Doc #: 66 Filed: 04/22/20 Page: 10 of 15 - Page ID#: 285

1983 authorizes “any citizen of the United States or other person within the jurisdiction thereof [to
pursue] an action at law [or] suit in equity” against every person who under color of state law
“causes. .. the deprivation of any rights, privileges, or immunities secured by the Constitution and
laws[.]”
Construing his claims broadly, Keyes claims that Banks, acting as a state official under
color of Kentucky law, deprived him of the Democratic nomination by having his name removed
from the ballot for the office of the Commonwealth Attorney, in violation of the substantive and
procedural due process components of the Fourteenth Amendment to the United States
Constitution. [R. 63], In response, Banks argues that Keyes does not meet the requirements set
forth in the Kentucky Constitution for the position and he does not have a liberty or property
interest to meet the requirements of the Fourteenth Amendment. [R. 62]; Ky. Const. § 100 (“No
person shall be eligible to the office of the Commonwealth’s Attorney unless he shall have been a
licensed practicing lawyer four years.”). Keyes does not dispute that he is not an attorney. See [R.
63 at p. 1], Instead, he argues that the Fourteenth Amendment allows anyone to run for office
without arbitrary limitations being imposed. [R. 63 at p. 2 (“Defendant by assuming that license
excludes Plaintiff as qualified person fit by his power of attorney certificate is untrue, pure fiction
and deceit.”)].
1. Procedural Due Process
“The requirements of procedural due process apply only to the deprivations of interests
encompassed by the Fourteenth Amendment’s protection of liberty and property.” Bd. of Regents
of State Colleges v. Roth, 408 U.S. 564, 569 (1972). Procedural due process claims require a twostep analysis. Mitchell v. Fankhauser, 375 F.3d 477, 480 (6th Cir. 2004). First, courts must

10 of 15

t_ase: /:±ts-cv-uuuza-KKU-tt5A uoc #: bb Filed: 04/22/20 Page: 11 of 15 - Page ID#: 286

determine “whether the alleged deprivation is within the ambit of the Fourteenth Amendment’s
protection of liberty and property.” Shoemaker v. City of Howell, 795 F.3d 553, 558-59 (6th Cir.
2015). Second, if the plaintiff does have a protected interest, the Court must determine how much
process was due and whether the plaintiff was “afforded adequate process prior to and following
the deprivation.” Id. at 559; Michell, 375 F.3d at 480.
Banks argues that Keyes cannot meet the first step of the analysis because Keyes did not
have a liberty or property interest in running for an election. [R. 62 at p. 1], Keyes argues that he
has a liberty interest to have his name on the ballot because “liberty consists] [of] the power [to
do] whatever does not injure another” and elections do not cause harm to people. [R. 63 at p. 1],
A government position, by itself, does not constitute a protected property interest. Bailey
v. FloydCnty. Bd. ofEduc., 106F.3d 135,141 (6thCir. 1997). “Government employment amounts
to a protected property interest if the employee is ‘entitled’ to continued employment.” Id. (citing
Roth, 408 U.S. at 577). A government employee asserting a protected property interest in his
position must “point to some statutory or contractual right conferred by the state which supports a
legitimate claim to continued employment.” Id. Keyes does not point to continuing employment,
or any statutory or contractual authority to show that he had a legitimate claim of entitlement to
keep his name on the ballot after it was determined that he did not meet the requirements of the
Kentucky Constitution. Thus, there was no deprivation of his property interest.
Keyes also argues that since Kentucky, is a right-to-work state, he is entitled to have his
name on the ballot. [R. 63 at p. 5]. However, the Supreme Court has “determined that an unlawful
denial by state action of a right to state political office is not a denial of a right of property or of
liberty secured by the due process clause.” Snowden v. Hughes, 321 U.S. 1, 7 (1944) (citing Taylor
11 of 15

^ase: /:i»-cv-uuuzd-KKU-hbA Doc #: 66 Filed: 04/22/20 Page: 12 of 15 - Page ID#: 287

v. Beckham, 178 U.S. 548 (1900)). Like Snowden, Keyes’ denial is one set by state Taw, and his
deprivation from running comes from his “failure to obey state law.” Snowden, 321 U.S. at 7.
Accordingly, Keyes’ claim concerning the Fourteenth Amendment “is so unfounded in substance
that we are justified in saying that it does not really exist; that there is no fair color for claiming
that his rights under the federal constitution have been violated.” Id. at 13. Therefore, since Keyes
cannot meet the first step by showing that he was deprived of a liberty or property interest, this
Court does not need to determine whether he received sufficient process. Thus, Keyes has not
established that Banks violated his procedural due process rights.
2. Substantive Due Process
The substantive component of the Due Process Clause protects fundamental rights created
by the Unite States Constitution. Fundamental rights are those specifically guaranteed by the
United States Constitution and those rights that are “implicit in the concept of ordered liberty.”
Baikov. Connecticut, 302 U.S. 319, 325 (1937). These rights generally include “the rights to
marry, to have children, to direct the education and upbringing of one’s children, to martial
privacy, to use contraception, to bodily integrity, and to abortion.” Washington v. Glucksberg, 521
U.S. 702, 720 (1997) (internal citations omitted).
Keyes argues that the Fourteenth Amendment does not permit placing restrictions on his
right to run for office since he is not infringing on other people’s liberties. [R. 63 at p. 1 ]. However,
substantive due process rights have been specifically defined by the Supreme Court and it does not
include the right to maintain employment, including the government placing restrictions on who
may run for public office. See Seal v. Morgan, 229 F.3d 567, 574-75 (6th Cir. 2000). Moreover,
the Supreme Court has already held that a person does not have a liberty or property interest in
12 of 15

t .XO-UV-UUU^J-|\t\L/-tDA

uoc w: Ob Hiea: U4/2Z/ZU Page: 13 ot 15 - Page ID#: 288

running for public office. Snowden, 321 U.S. at 7. Therefore, he has not shown tha' his remova.
from the ballot violated his substantive due process rights under the Fourteenth Amendment. Thus,
Keyes’ substantive due process claim lacks merit as a matter of law.
In sum, Keyes has not shown that there is a genuine dispute to material facts or that he is
entitled to judgment as a matter of law. Instead, it is recommended that Keyes’ motion for summary
judgment be denied for the reasons that Banks’ motion for summary judgment should be granted.
First, Keyes has not shown that the removal of his name violated his procedural due process rights
because he could not show a property or liberty interest in running for office as the Commonwealth
Attorney. Second, Keyes could not show that he was denied a fundamental right when his name
was taken off ofthe ballot for not meeting the requirements set forth in Section 100 of the Kentucky
Constitution. Therefore, it is recommended that Keyes’ motion for summary judgment be denied
and Banks’ motion for summary judgment be granted.
Motion to Set Trial:
At the conclusion of Keyes’ cross-motion for summary judgment, he also requests the
Court to set a trial date in this matter. [R. 63 at p. 7-8]. However, having concluded that the
undisputed facts show that Banks is entitled to judgment as a matter of law concerning Keyes
substantive and procedural due process claims, Rule 56 permits the Court to enter judgment in
f

favor of Banks. See Celotex, All U.S. at 323-24 (“[o]ne of the principal purposes of the summary
judgment rule is to isolate and dispose of factually unsupported claims or defenses.”); see also
Matsushita, 475 U.S. at 587 (“[wjhere the record taken as a whole could not lead a rational trier
of fact to find for the nonmoving party, there is no genuine issue for trial.”). Thus, since this Court
was waiting to schedule a trial date, if necessary, following the outcome of the dispositive motions,
13 of 15

case: 7:18-cv-00023-KKC-EBA Doc #: 66 Filed: 04/22/20 Page: 14 of 15 - Page ID#: 289

there are no issues that need to be submitted to the jury. Therefore, it is recommended that Reyes^
request to set a trial date be denied.

IV.

Recommendation

Therefore, having considered the record and being advised,
IT IS RECOMMENDED that:
1. Banks’ motion to dismiss [R. 55] be DENIED;
2. Banks’ motion for summary judgment [R. 62] be GRANTED; and
3. Keyes’ motion for summary judgment and motion to set a trial date [R. 63] be
:

DENIED.
s)< % >(c

Up

’K’H’i*

The parties are directed to 28 U.S.C. § 636(b)(1) for a review of appeal rights governing
this Recommended Disposition. Particularized objections to this Recommended Disposition must
be filed with the Clerk of the Court within fourteen days of the date of service or further appeal is
V "* ■

waived. Fed. R. Civ. P. 72(B)(2); United States v. Sullivan, 431 F.3d 976, 984 (6th Cir. 2005). A
■>

■

.J:. .

.

A -

-

general objection that doeS .no,t “specify the issues of contention” is not sufficient to satisfy the

Xa'

requirement of written and specific objections.Miller v. Currie, 50 F.3d 373, 380 (6th Cir. 1995).
Poorly drafted objections, general objections, or objections that require a judge’s interpretation
should be afforded no effect and are not sufficient to preserve the right of appeal. Howard v.
Secretary of HHS, 932 F.2d 505, 508-09 (6th Cir. 1991). A party may respond to another party’s
objections within fourteen days of being served with a copy of those objections. Fed. R. Civ. P.
72(b)(2).
Signed April 22, 2020.
14 of 15
, ??■

■

case: /:i«-cv-00023-KKC-EBA

*
%

doc

#: 66 Hied: 04/22/20 Page: 15 ot 15 - Page ID#: 290

Signed By:

P8I1
||BP Edward B. Atkins

mm

£>•

United States Magistrate Judge

•»!

15 of 15

Case: 7:18-cv-00023-KKC-EBA Doc #: 61 Filed: 12/17/19 Page: 1 of 1 - Page ID#: 253

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION
AT PIKEVILLE
CIVIL NO. 7:18-CV-23-KKC

ELLIS KEYES,
Plaintiff,

ORDER

v.

EDISON BANKS,
Defendant.

kkk "kick kirk

The plaintiff moved the Court to set this matter for a trial without further discovery or
expert witnesses (DE 53). This was his third motion asking the Court to set this matter for
trial. The magistrate judge correctly denied the motion, explaining that a trial date will be
scheduled, if necessary, after the Court has ruled on any dispositive motions (DE 54). Plaintiff
has filed an objection (DE 56) to the magistrate judge’s order.
The Court must rule on dispositive motions before this matter may proceed to trial.
Accordingly, the plaintiffs’ objection to the magistrate judge’s order is OVERRULED.
Dated December 17, 2019
•teipj

Sti

mm.
It' KAREN K. CALDWELL

1

I

5*

Hr

^51

UNITED STATES DISTRICT JUDGE
EASTERN DISTRICT OF KENTUCKY

Case: 7:18-cv-00023-KKC-EBA Doc #: 58 Filed: 11/25/19 Page: 1 of 2 - Page ID#: 249

i

UNITED STATES DISTRICT COURT(
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION at PIKEVILLE
■

CIVIL ACTION NO. 7:18-CV-23-KKC-EBA
ELLIS KEYES,

■

f-

i
PLAINTIFF,

ORDER

v.

EDISON BANKS,

DEFENDANT.

This matter is before the undersigned on the District Court’s referral and Order. [R. 39].
On February 23, 2018 Edison Banks filed a motion in Letcher Circuit Court requesting that Ellis
Keyes’s name be removed from the election ballot because he lacked the qualifications required
by the Kentucky Constitution to run for the office of Commonwealth’s Attorney. [R. 55 at 233],
Keyes then filed his Complaint in this matter, asking this court to stay or dismiss his then-pending
state-court proceeding and to grant “such other relief deemed just and proper.” [R. 1]. The District
Court dismissed the action for lack of jurisdiction. [R. 4-5], Thereafter, the Sixth Circuit reversed
and remanded the case back to the District Court, construing Keyes’s pro se Complaint as raising
a federal question under the Fourteenth Amendment. [R. 14 at 79]; Keyes v. Banks, NO. 18-5213
(6th Cir. Sept. 26, 2018).
Before filing his Answer, Banks filed his first motion to dismiss and bar prospective filings
on January 15, 2019. [R. 27]. Banks argued that Keyes’s Complaint should be dismissed because
the claims were already decided by the Letcher County Circuit Court. [R. 27 at 156]. The District
Court denied the Motion without prejudice because Banks did not provide a legal argument to
1 of 2

Case: 7:18-cv-00023-KKC-EBA Doc #: 58 Filed: 11/25/19 Page: 2 of 2 - Page ID#: 250

support his claims and did not support his factual allegations with evidence of pleadings "filed or orders entered in that matter. [R. 29]. Following some delay, Banks then filed his Answer in this
matter. [R. 38,40]. On October 21,2019, Banks renewed his motion to dismiss and bar prospective
filings. [R. 55]. This time, Banks provides some legal authority, but minimal evidence to support
his factual allegations. [Id] Plaintiff Ellis Keyes subsequently responded to Banks’s motion,
stating that Banks’ motion to dismiss must be dismissed in the interest of justice. [R. 57],
A review of the record sheds little light on the basis of the Plaintiffs Fourteenth
^ Amendment claim or the defenses, whether legal or factual, asserted by the Defendant in this
action. Without more, it would seem that neither side likes what the other is doing, but neither
provides a sufficient statement of the factual background of the underlying matter, or legal
authority applicable to the present. Therefore, based on the difficulty of determining the claims
and defenses being raised by both parties, this Court sets this matter for a status hearing.
Accordingly, having considered the record and being advised,
IT IS ORDERED that Banks’s Motion [R. 55] is SET FOR STATUS HEARING before
the undersigned on FRIDAY DECEMBER 6, 2019 at 10:30 A.M. in PIKEVILLE, KENTUCKY
to clarify the claims being asserted in this instant lawsuit by Keyes and the basis of the dispositive
motion by Banks.
Signed November 25, 2019.

1

gfe

n

Signed By:

m Edward B. Atkins

m

* United States Magistrate Judge

2 of 2 '

Case: 7:18-cv-00023-KKC-EBA Doc #: 39 Filed: 03/27/19 Page: 1 of 3 - Page ID#: 195

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION at PIKEVILLE
ELLIS KEYES,
Plaintiff,

Civil Action No. 7: 18-23-KKC

v.

ORDER

EDISON BANKS,
Defendant.
On January 31, 2019, pro se plaintiff Ellis Keyes filed a “Motion for Summary
Judgment.” [R. 30] Defendant Edison Banks did not file a timely response. However, the
Court granted his motion for a brief extension of time to do so. Defendant Banks, through
counsel, filed his response - consisting of a single paragraph of conclusory argument - on the
due date. [R. 34] This motion is therefore ripe for decision.
Keyes filed this civil action in February 2018. Although he failed to file a formal
complaint as required by Federal Rule of Civil Procedure 3, the Court liberally construed his
“Emergency Motion — for order for Stay of Removal & Affidavit” [R. 1] as such. Keyes’s
complaint wandered through a variety of topics, but at bottom he sought an injunction to
prevent the Circuit Court of Letcher County, Kentucky from granting Banks’s motion to
remove Keyes from the ballot for the office of the Commonwealth Attorney for Letcher
County. Id. While this federal action was pending, the Letcher Circuit Court removed Keyes
from the ballot because he is not a licensed attorney as required by Kentucky law, and Banks
subsequently prevailed in the election.
In his two-page motion for summary judgment, Keyes contends that the RookerFeldman doctrine does not deprive this Court of subject matter jurisdiction over his complaint
and that Banks is not qualified for the position of Commonwealth Attorney. [R. 30] To prevail

1

Case: 7:18-cv-00023-KKC-EBA Doc #: 39 Filed: 03/27/19 Page: 2 of 3 - Page ID#: 196

on a motion for summary judgment, the movant must establish that there is no genuine
dispute as to any material fact and, most relevant here, that he is entitled to a judgment in
his favor as a matter of law. Loyd u. St. Joseph Mercy Oakland, 766 F. 3d 580, 588 (6th Cir.
2014). Keyes’s motion fails to satisfy the second requirement because his contentions only
attempt to rebut arguments that Banks might make regarding this Court’s jurisdiction or
the viability of the complaint; they do not relate to or support his own entitlement to the relief
he seeks in his complaint. Because Keyes’s motion for summary judgment does not establish
that he is entitled to the relief he seeks in his complaint, it must be denied.
Keyes has also filed a “Request for Entry of Default Rule 55.” [R. 35] Although Banks
did not timely file an answer to the complaint, that is not the basis for Keyes’s motion.
Instead, he complains that Banks did not send him a copy of his response to Keyes’s motion
for summary judgment. Banks counters that he did, in fact, send Keyes a copy of his response
consistent with the averments in his certificate of service. [R. 36] Keyes’s motion will be
denied for two reasons. First, even if Banks did fail to send a copy of his response to Keyes,
that might be grounds for disallowing the response, but it is not ground for entry of default.
See Fed. R. Civ. P. 55(a). Second, Keyes himself failed to include the certificate of service
required by Federal Rule of Civil Procedure 5(d)(1)(A). Keyes was expressly advised of this
requirement at the outset of the case. [R. 3] Both parties are reminded that the failure to
serve opposing parties, or their counsel in compliance with Rule 5 constitutes grounds to
strike the relevant document from the record or for other appropriate measures by the Court.
In this instance, Keyes’s motion for entry of default is unwarranted.
Finally, after Banks failed to file his answer by February 7, 2019 as required by Rule
12(a)(4)(A), on March 5, 2019, the Court entered an Order sua sponte extending his deadline
to do so by ten days. Banks missed that deadline too, but has now filed a motion for an
extension of time to file his answer. Banks explains that he attempted to electronically file
2

Case: 7:18-cv-00023-KKC-EBA Doc #: 39

Filed: 03/27/19

Page: 3 of 3 - Page ID#: 197

his answer prior to the deadline using CM/ECF, but was unaware until recently that his
attempt was unsuccessful. [R. 37] He has now successfully tendered his proposed answer. [R.
38] The Court finds the requested extension warranted and will grant the request.
The defendant having filed his answer to the complaint, the Court will refer this
matter to a magistrate judge pursuant to 28 U.S.C. § 636(b) for pretrial management.
Accordingly, it is ORDERED as follows:
1.

Ellis Keyes’s motion for summary judgment [R. 30] is DENIED.

2.

Ellis Keyes’s “Request for Entry of Default Rule 55” [R. 35] is DENIED.

3.

Banks’s .motion for an extension of time to file his answer [R. 37] is

GRANTED.
4.

The Clerk of the Court shall FILE Banks’s tendered answer [R. 38] in the

5.

This matter is REFERRED to a United States Magistrate Judge to conduct

record.

all further proceedings, including preparing proposed findings of fact and conclusions of law
on any dispositive motions. The Clerk of the Court shall ASSIGN this matter to a Magistrate
Judge.
Entered: March 27, 2019.

KAREN K. CALDWELL, CHIEF JUDGE
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY

3

Case: 7:18-cv-00023-KKC-EBA Doc #: 40 Filed: 03/27/19 Page: 1 of 3 - Page ID#: 198

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION at PIKEVILLE

ELLIS KEYES,
Plaintiff,
Civil Action No. 7:18-23-KKC
v.
EDISON BANKS,
Defendant.

ANSWER

Comes now the Defendant, Edison Banks, by and through counsel, and for his Answer to
the Plaintiff, Ellis Keyes’ Complaint states as follows:
FIRST DEFENSE
The Plaintiff’s Complaint fails to state a cause of action against this Defendant upon
which relief may be granted, and therefore the Complaint should be dismissed.
SECOND DEFENSE
The Defendant is without sufficient information on which to form a basis of belief as to
the truth of the allegations set forth in Plaintiff’s Complaint, and therefore same are denied. All
allegations of Plaintiff’s Complaint not specifically admitted herein are denied.
THIRD DEFENSE
The Plaintiff’s Complaint should be dismissed for failure to join indispensable parties.
FOURH DEFENSE
The Defendant further pleads each and every affirmative defense available to him
under CR 8.03 and CR 12.02 as if fully restated herein and all other affirmative defenses

Case: 7:18-cv-00023-KKC-EBA Doc #: 40 Filed: 03/27/19 Page: 2 of 3 - Page ID#: 199

available to him under the laws of the Commonwealth of Kentucky, at common law or provided
by statute;
FIFTH DEFENSE
The Defendant expressly reserves the right to amend his answer and the right to assert
affirmative defenses should they become necessary or available in the future as additional facts
become available to support additional defenses.
WHEREFORE, having answered, the Defendant, Edison Banks, hereby demands that
the Plaintiff’s Complaint against him be dismissed and that the Plaintiff take nothing therein; for
its costs herein expended; for TRIAL BY JURY; and for any and all other relief to which it may
appear properly entitled.
Respectfully submitted,

/S/ADAM P. COLITNS
ADAM P. COLLINS, ESQ.
COLLINS, COLLINS & CONLEY P.S.C.
P.O. BOX 727
HINDMAN, KENTUCKY 41822
PHONE (606) 785-5048
FAX (606) 785-3021

CERTIFICATE OF SERVICE
This is to certify that true and correct copy of the foregoing was filed via CM/ECF on
Tuesday, March 6, 2019 and distributed to:
Ellis Keyes
P.O. Box 1073
Whitesburg, Kentucky 41858

Case: 7:18-cv-00023-KKC-EBA Doc #: 40 Filed: 03/27/19 Page: 3 of 3 -.Page ID#: 200

/S/ADAM P. COLLINS
ADAM P. COLLINS, ESQ.
'/

I

\

/

3

/

—\

Supreme Court of the United States
Office of the Clerk
Washmgton7UC-2h54^~0#0-l____
October 4, 2018

Scott S. Harris
Clerk of the Court
(202) 479-3011

Mr. Ellis Keyes
P.O. Box 1073
Whitesburg, KY 41858-1073

Re: Ellis Keyes
v. Edison Banks
Application No. 18A365

Dear Mr. Keyes:
The application for a stay in the above-entitled case has been
presented to Justice Kagan, who on October 4, 2018, denied the application.

Sincerely,
Scott S. Harris, Clerk
by
Mara Silver
Advising Attorney/Emergency
Applications Clerk

APPENDIX A

No. 18-5213
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[DATE STAMP]
FILED
Jun 01, 2018
DEBORAH S. HUNT, Clerk
ELLIS KEYES,
Plaintiff-Appellant.
v.
EDISON BANKS,
Defendant-Appellee.
Before: GUY, COOK, and DONALD, Circuit
Judges.
Pro se litigant Ellis Keyes appeals the district
court's dismissal of his complaint asking to enjoin
proceedings in the Letcher County Kentucky Circuit
Court. On April 19, 2018, we denied his emergency
motion to stay those proceedings. Keyes now petitions
for rehearing. See 6th Cir. R. 27(g). Upon review, we
conclude that his motion does not demonstrate that we
overlooked or misapprehended a point of law or fact in
denying his emergency stay motion. See Fed. R. App.
A-l

I

P. 40(a)(2).
Therefore, the motion for reconsideration is
DENIED.

ENTERED BY ORDER OF THE COURT
/s/
Deborah S. Hunt, Clerk

A-2

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION at PIKEVILLE
ELLIS KEYES
Plaintiff,
v.

Civil Action No. 7: 18-23-KKC

EDISON BANKS,
Defendant.
ORDER
Plaintiff Ellis Keyes has filed a "Motion to Set
Jury Trial" requesting that this matter be scheduled
for jury trial in September. [R. 11] However, the Court
dismissed this action on February 26, 2018 [R. 4, 5],
and Keyes' appeal remains pending before the United
States Court of Appeals for the Sixth Circuit [R. 8]
Accordingly, Keyes' "Motion to Set Jury Trial"
[R. 11] is DENIED AS MOOT.
Entered: September 5, 2018.
[SEAL]

/s/
KAREN K. CALDWELL, CHIEF JUDGE
UNITED STATES DISTRICT COURT '
EASTERN DISTRICT OF KENTUCKY
A-3

APPENDIX C

No. 18-5213
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[DATE STAMP]
FILED
Apr 19, 2018
DEBORAH S. HUNT, Clerk
ELLIS KEYES
Plaintiff-Appellant,
v.
EDISON BANKS,
Defendant.
ORDER
Before: GUY, COOK, and DONALD, Circuit
Judges.
Ellis Keyes appeals the district court's judgment .
dismissing his complaint. Keyes moves for an
emergency stay, asking us to enjoin proceedings in the
Letcher County Circuit Court.
We may grant a stay or injunction pending
appeal using the same analysis that we use m
A-4

reviewing the grant or denial of a motion for a
preliminary injunction. Overstreet v. LexingtonFayette Urban Cty. Gov % 305 F.3d 566, 572 (6th Cir.
2002). This involves examination of four
factors-likelihood of success on the merits, irreparable
harm to the moving party, harm to other parties, and
the public interest. Serv. Emps. Int'l Union Local 1 v.
Husted, 698 F.3d 341, 344 (6th Cir. 2012) (citing
Overstreet, 305 F.3d at 573). As the moving party,
Keyes has the burden of showing that he is entitled to
a stay. Id. at 343.
The Anti-Injunction Act, 28 U.S.C. § 2283,
prevents us from granting Keyes the relief he seeks.
We conclude that the relevant factors do not weigh in
favor of granting a stay.
The emergency motion for a stay is DENIED.

ENTERED BY ORDER OF THE COURT
Is/
Deborah S. Hunt, Clerk

A-5

APPENDIX D

Commonwealth of Kentucky
Court of Appeals
NO. 2018-CA-000423-EL
ELLIS KEYES
APPELLANT
v.
EDISON G. BANKS, II
APPELLEE
ELECTION APPEAL FROM
LETCHER CIRCUIT COURT
ACTION NO. 18-CI-00032
ORDER
BEFORE: JONES, J. LAMBERT, AND NICKELL,
JUDGES.
The appellant, Ellis Keyes, filed a notice of
appeal from an opinion and order of the Letcher
Circuit Court that found Mr. Keyes was not a bona fide
candidate for the office of Commonwealth's Attorney
for the 47th Judicial Circuit. KRS 118.176(4) provides
that review of an order disqualifying a candidate is
initiated by filing in this Court a motion to set aside
the circuit court order. On March 22, 2018, this Court
A-6

directed the appellant to show cause why this action
should not be dismissed as improperly taken.
The Court has considered the parties' responses
to the March 22 order. "Election contests must be
practiced in strict conformity with the legislatively
mandated procedures." Stearns v. Davis, 707 S.W.2d
787, 789 (Ky. App. 1985) (citing Duvall v. Gatewood,
500 S.W.2d 416 (Ky. 1973)). Having been otherwise
sufficiently advised, the Court fails to find sufficient
cause and ORDERS that this action be DISMISSED as
improperly taken.
ENTERED: APR 16 2018
/s/

JUDGE, COURT OF APPEALS

A-7

APPENDIX E

Commonwealth of Kentucky
Court of Appeals
NO. 2018-CA-000423-EL
ELLIS KEYES
APPELLANT
v.
EDISON G. BANKS, II
APPELLEE
ELECTION APPEAL FROM
LETCHER CIRCUIT COURT
ACTION NO. 18
SHOW CAUSE ORDER
The appellant, Ellis Keyes, filed a notice of
appeal on March 15, 2018, in the Letcher Circuit Court
from the March 13, 2018 opinion and order of that
court that found Mr. Ellis was not a bona fide
candidate for the office of Commonwealth's Attorney
for the 47th Judicial Circuit.
Statutes governing election contests are strictly
construed and must be followed. Stearns v. Davis, 707
S.W.2d 787 (Ky. App. 1985) (citingDuvall v. Gatewood,
500 S.W.2d 416 (Ky. 1973)). KRS 118.176(4)
A-8

establishes the procedure to challenge a circuit court
order disqualifying a candidate. See Gibson v.
Thompson, 336 S.W.3d 81 (Ky. 2011). This statute
provides that the disqualified candidate must file in
the Court of Appeals a motion to set aside the order
within five (5) days of the entry of the circuit court
order. Instead of filing a motion to set aside the March
13 order in this Court, the appellant filed a notice of
appeal in the Letcher Circuit Court.
f
The appellant is ORDERED to SHOW CAUSE
why this action should not be dismissed as improperly
taken. The appellant SHALL FILE with the Clerk of
this Court five copies of a response to this order within
ten (10) days of the date of entry of this order. Within
five (5) days of the date of filing of the appellant's
response, the appellee may file a response. Upon the
expiration of the time given, this matter shall be
submitted to a three-judge panel of this Court for
review.
ENTERED: 03/22/18
Isi '
CHIEF JUDGE, COURT OF APPEALS

A-9

APPENDIX F
COMMONWEALTH OF KENTUCKY
LETCHER CIRCUIT COURT
CIVIL ACTION NO: 18-CI-00032
[DATE STAMP]
ENTERED
LARRY D. ADAMS, CLERK
MAR 13 2018
LETCHER CIRCUIT DISTRICT COURTS
BY/s/
EDISON G. BANKS, II
PETITIONER
VS
ELLIS L. KEYES
And
ALLISON LUNDERGAN GRIMES, in her official
capacity as SECRETARY OF STATE OF THE
COMMONWEALTH OF KENTUCKY and
CHAIRPERSON OF THE STATE BOARD OF
ELECTIONS OF THE COMMONWEALTH OF
KENTUCKY
And
WINSTON MEADE, in his official capacity as
A-10

LETCHER COUNTY COURT CLERK and
CHAIRMAN OF THE LETCHER COUNTY BOARD
OF ELECTIONS
RESPONDENTS
THIS CAUSE, having come on for hearing on
March 8, 2018, on the Petitioner's Motion Challenging
the bona fides of the Respondent's qualifications to
seek election for the Office of the Commonwealth's
Attorney for the 47th Judicial Circuit and the Court
having heard arguments of Counsel and having
reviewed the record and Briefs filed herein and (he
Court being otherwise sufficiently advised, hereby
enter its Opinion and Order.
OPINION
1. This action is brought pursuant to KRS
118.176, which allows any opposing candidate to
question the bona fides of an opposing candidate.
2. The Petitioner, Edison G. Banks, II, the
current Commonwealth's Attorney for the 47th
Judicial Circuit, has filed for re-election in the 2018
General Election. The Movant is a Republican.
3. The Respondent, Ellis L. Keyes, has also filed
for the same office. The Respondent is a Democrat.
4. Section 100 of the Constitution of the
Commonwealth of Kentucky sets forth the
qualifications one must have to hold the Office of
Commonwealths Attorney. The two issues to be
A-ll

decided in this action are whether or not the
Respondent, Ellis L. Keyes, is an attorney and if so,
whether he has been licensed to practice law in the
Commonwealth for the past four years.
5. The Movant produced evidence, in the form of
a letter, from the Kentucky Bar Association, indicating
that the Respondent, Ellis L. Keyes, is not a licensed
practicing attorney in this Commonwealth. The
Respondent, Ellis L. Keyes, admitted during the
hearing of this matter, that he, in fact, is not now, nor
has he ever been, a licensed practicing attorney within
the Commonwealth of Kentucky.
6. That Section 100 of the Kentucky
Constitution provides that "No person shall be eligible
to the office of Commonwealth Attorney who is not at
the time of his election, twenty-four years of age,
citizen of Kentucky, and who has not resided in the
state two years and one year next preceding his
election in the county and district in which he is a
candidate. No person shall be eligible to the office of
Commonwealth's Attorney unless he shall have been
a licensed practicing lawyer for four years."
7. The Constitution of the Commonwealth sets
forth the requirements to hold this office, and the
Respondent, Ellis L. Keyes, clearly does not meet the
constitutional requirements to hold the office of the
Commonwealth Attorney.
ORDER

A-12

Based upon the foregoing, the Court hereby
orders as follows:
a. That the Petitioner's Motion for Removal from
the Ballot and Injunctive Relief, pursuant to KRS
118.176, is hereby granted.
b. The Respondent, Winston Meade, in his
official capacity as the Letcher County Court Clerk
and as Chairman of the Letcher County Board of
Elections, and the Respondent, Allison Lundergan
Grimes, in her official capacity as Secretary of State of
the Commonwealth of Kentucky and Chairperson of
the State Board of Elections of the Commonwealth of
Kentucky, are hereby enjoined and restrained from
permitting or causing the name of Ellis L. Keyes from
appearing on any ballot for the office of the
Commonwealth's Attorney for the 47th Judicial Circuit
for the May 22, 2018 Primary Election and/or the
November 6, 2018 General Election.
c. IT IS FURTHER ORDERED AND
ADJUDGED that the Respondents, Winston Meade
and Allison Lundergan Grimes, in their official
capacities, are enjoined and restrained from tabulating
or certifying, any votes cast for the Respondent, Ellis
L. Keyes, for the office of the Commonwealth's
Attorney for the 47th Judicial Circuit in the May 22,
2018 Primary Election and/or the November 6, 2018
General Election.
This is a final and appealable Order and there
being no just cause for delay, this matter is hereby
A-13

stricken from this Court's docket.
DATED this 13th day of March, 2018.
/s/
JAMES W. CRAFT, II
JUDGE, LETCHER CIRCUIT COURT

A-14

APPENDIX G
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION
AT PIKEVILLE
ELLIS KEYES,
Plaintiff,
v.

CIVIL NO. 7:18-CV-23-KKC

EDISON BANKS
Defendant.
/

JUDGMENT
In accordance with the order entered on this
date the Court hereby ORDERS and ADJUDGES as
follows:
1) this action is DISMISSED and STRICKEN
from the Court's active docket; and
2) this judgment is FINAL and APPEALABLE.
Dated February 26, 2018.
[SEAL]

KAREN K. CALDWELL, CHIEF JUDGE
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
A-15

APPENDIX H
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION - PIKEVILLE
ELLIS KEYES
Plaintiff,
v.

CIVIL NO. 7:18-CV-23-KKC

EDISON BANKS
Defendant.
ORDER
This matter is before the Court on plaintiffs
"emergency motion," (DE 1) in which he requests that
the Court stay a certain action in Letcher Circuit
Court. Plaintiff states that he is a candidate for
Commonwealth Attorney in Letcher County, Kentucky
and that his opponent has filed an action in Letcher
Circuit Court to remove plaintiffs name from the
ballot because he is not a licensed attorney. Plaintiff
asks this Court to stay or dismiss his opponent's action
in state court. (DE 1, Motion at 2, 3, 4, 9.) This is the
sole relief plaintiff seeks in this Court.
"A court of the United States may not grant an
injunction to stay proceedings in a State court except
as expressly authorized by Act of Congress, or where
A-16

necessary in aid of its jurisdiction, or to protect or
effectuate its judgments." 28 U.S.C.A. § 2283. None of
those conditions applies here. Accordingly, this Court
has no jurisdiction to render the sole relief requested,
by plaintiff. For this reason, the Court hereby
ORDERS that this matter is DISMISSED and
STRICKEN from the Court's active docket.
Dated February 26, 2018.
[SEAL]

KAREN K. CALDWELL, CHIEF JUDGE
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY

A-17

APPENDIX I

Supreme Court of Kentucky
2018-SC-000199-D
(2018-CA-000423)

ELLIS KEYES
MOVANT
V.
EDISON G. BANKS, II
RESPONDENT
LETCHER CIRCUIT COURT
2018-CI-00032
ORDER DENYING DISCRETIONARY REVIEW
The motion for review of the decision of the
Court of Appeals is denied.
Movant's motion to supplement the motion for
discretionary review is here by denied as moot.
ENTERED: August 8, 2018.
/s/
CHIEF JUSTICE

A-18

NOT RECOMMENDED FOR FULL-TEXT PUBLICATION
No. 18-5213

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Sep 26, 2018
DEBORAH S. HUNT, Clerk

ELLIS KEYES,

)
)
)
)
)
)

Plaintiff-Appellant,
v.

)
)

EDISON BANKS,
Defend ant - Appe! lee,

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
KENTUCKY

)

ORDER

Before: NORRIS, SILER, and SUTTON, Circuit Judges.

Ellis Keyes, a pro se Kentucky litigant, appeals the district court’s judgment dismissing '
his “Emergency Motion”-to enjoin proceedings in the Letcher County Circuit Court. This case
has been .referred to a panel of the court that, upon examination, unanimously agrees that oral
argument is not needed. See Fed, R. App. P. 34(a).
Keyes is an aspiring candidate for the Office of the Commonwealth's Attorney for
Letcher County, Kentucky. The incumbent Commonwealth’s Attorney filed a motion in Letcher
County Circuit Court to remove Keyes's name from the ballot, arguing that Keyes lacks the
necessary qualifications because he is not a licensed attorney. Keyes then filed this motion
asking the district court to stay or dismiss his then-pending state court proceedings, as well as for
“such other further relief deemed just and proper.'’ Invoking 28 IJ.S.C. § 2283, tire district court
dismissed Keyes's action for lack of jurisdiction to provide the requested relief. This timely
appeal followed.

JNO. lCS-JZ!.!

*2______ We review de novo a district court’s judgment dismissing an action for Jack of subjectmatter jurisdiction. Jams v. Ashcroft, 348 F.3d 49J, 492 {6th Cir, 2003). A district' court: must
dismiss an action if it “determines at any time that it lacks subject-matter jurisdiction." Fed. R.
Civ. P. ] 2(h)(3). Under the Anti-Injunction Act. “[a] court of Lite United States may not grant an
injunction to stay proceedings in a State court except as expressly authorized by Act of Congress,
or where necessary in aid of its jurisdiction, or to protect or effectuate its judgments." 28 U.S.C.
§ 2283. While the Act limits the availability of injunctive relief, it says nothing about the federal
courts' subject-matter jurisdiction. Chase Bank USA, N.A. v. City of Cleveland, 695 F,3d 548.
557 (6th Cir. 2012). And the Supreme Court, has recently admonished courts that statutory
provisions are not jurisdictional unless Congress dearly states that they are. Arhaugh v. Y&H
Carp., 546 U.S. 500. 515 (2006), The Act is not, therefore, jurisdictional.
Construing Keyes's pro-se filing - liberally, he raises a federal question under the
Fourteenth Amendment. The district court therefore has jurisdiction over the case under 28
U.S.C. § 1331, which grants federal district courts jurisdiction over “all civil actions arising
under the Const itution, laws, or treaties of the United States."
Because the district court improperly dismissed Keyes's action for lack of subject-matter
jurisdiction, we REVERSE the district court's judgment and REMAND the case for further
proceedings.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt. Clerk

■ CM/ECF U.S. Eastern District of Kentucky Version 6.3.2

Page 1 of 10

~ - APPEA-ET(2rogED2^PP,KRyKEFEfeREQffiNU.S. District Court
Eastern District of Kentucky (Pikeville)
CIVIL DOCKET FOR CASE #: 7:18-cv-00023-KKC-EBA
Internal Use Only

Keyes v. Banks
Assigned to: Judge Karen K. Caldwell
Referred to: Magistrate Judge Edward B. Atkins
Case in other court: Sixth Circuit Court of Appeals, 1805213
Letcher Circuit Court, 18-CI-00032
Sixth Circuit Court of Appeals, 1905311
Cause: 42:1983 Civil Rights Act .

Date Filed: 02/23/2018
Date Terminated: 09/02/2020
Jury Demand: Both
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

Plaintiff
Ellis Keyes

represented by Ellis Keyes
P.O. Box 1073
Whitesburg, KY 41858-1073
PRO SE

V.
Defendant
Edison Banks

Date Filed
02/23/2018

represented by Adam P. Collins
Collins, Collins & Conley PSC
161 W Main St
P.O. Box 727
Hindman, KY 41822-0727
606-785-5048
Fax: 606-785-3021
Email: admin@collinsconley.com
A TTORNEY TO BE NOTICED
Docket Text

#

1

COMPLAINT (NO PROCESS REQUESTED). (Filing fee $400; receipt
number 7005086), filed by Ellis Keyes pro se. (Attachments: # i Order
Overruling Keyes GJ Request, # 2 Amended Ntc of Hearing, # 3
Amended Petition, # 4 KY Bar Association Ltr, # 5 Notification and
Declaration, # 6 Newspaper Article, # 7 Banks Certificate of
Nomination, # 8 Keyes Certificate of Nomination, # 9 Petition for
Removal from Ballot, # K) Civil Summons, # 1J_ Petition for Removal
from Ballot)(TDA) (Additional attachment(s) added on 2/23/2018: # J_3
Filing Fee Receipt) (TDA). (Entered: 02/23/2018)

https://ecf.kyed.circ6.dcn/cgi-bin/DktRpt.pl7951461214591906-L_l_0-1

9/9/2020

CM/ECF U.S. Eastern District of Kentucky Version 6.3.2

02/23/2018

Di
te!

2

02/23/2018

Page 2 of 10

(Court only) CASE ASSIGNMENT: (Attachments: # I Case
I Assignment)(TDA) (Entered: 02/23/2018)

1 I IMPORTANT NOTICE to Pro Se Filer: Information relating to pro se
filings and F.R.Civ.P. 5.2 requiring personal identifiers be partially
I redacted from documents filed with the court. Click here for more
I information on the rules. It is the sole responsibility of counsel and the
I parties to comply with the rules requiring redaction of personal data
identifiers, cc: pro se filer via hand delivery (Attachments: # 1 Sample
| Caption Page)(TDA) (Entered: 02/23/2018)

02/23/2018

Conflict Check run. (TDA) (Entered: 02/23/2018)

02/23/2018

I ***FILE SUBMITTED TO CHAMBERS of PSO for review: _1
| Complaint (Emergency Motion). (TDA) (Entered: 02/23/2018)

02/26/2018

4

ORDER: Court ORDERS that matter is DISMISSED and STRICKEN
from Court's active docket. Signed by Judge Karen K. Caldwell on
I 2/26/2018. (TDA) cc: Keyes via US Mail (Entered: 02/26/2018)

02/26/2018

5

JUDGMENT: Court hereby ORDERS and ADJUDGES as follows: 1)
I action DISMISSED and STRICKEN from Court's active docket; and 2)
I this judgment is FINAL and APPEALABLE. Signed by Judge Karen K.
Caldwell on 2/26/2018. (TDA) cc: Keyes via US Mail (Entered:
02/26/2018)

02/28/2018

6 I PROOF OF SERVICE re 1 Complaint (Emergency Motion), filed by
Ellis Keyes pro se. (Attachments: # \ Envelope Postmarked 2/26/18)
(TDA) (Entered: 02/28/2018)

02/28/2018

7 I NOTICE OF APPEAL as to 4 Order, 5 Judgment, filed by Ellis Keyes
pro se. Filing fee $505, receipt number 128946. cc: Mr. Keyes w/ docket
sheet via hand delivery, 6CCA electronically. (TDA) (Entered:
02/28/2018)

03/01/2018

8 I USCA Case Number 18-5213; Case Manager Amy Gigliotti for 7 Notice
of Appeal filed by Ellis Keyes. (Attachments: # l Briefing Form) (TDA)
(Entered: 03/01/2018)

04/19/2018

9 I ORDER of USCA as to 7 Notice of Appeal; The emergency motion for a
stay is DENIED. (Attachments: # 1 Cover Letter)(TDA) (Entered:
I 04/19/2018)

06/01/2018

JjO I ORDER of USCA as to 7 Notice of Appeal; motion for reconsideration
is DENIED. (Attachments: # I Cover Letter)(TDA) (Entered:
06/01/2018)

08/20/2018

11 I MOTION to Set Jury Trial, filed by Ellis Keyes pro se. Motions referred
I to PSO. (Attachments: # 1 Supreme Court Application for Stay) (TDA)
(Entered: 08/20/2018)

08/20/2018

12

DEMAND for Jury Trial by Ellis Keyes pro se. (TDA) (Entered:
I 08/20/2018)

https://ecf.kyed.circ6.dcn/cgi-bin/DktRpt.pl7951461214591906-L_l_0-l

9/9/2020

CM/ECF U.S. Eastern District of Kentucky Version 6.3.2

08/20/2018

Page 3 of 10

***MOTION SUBMITTED TO CHAMBERS of PSO for review: re H
MOTION to Set Jury Trial, filed by Ellis Keyes. (TDA) (Entered:
08/20/2018)

09/05/2018

13

ORDER: Keyes' "Motion to Set Jury Trial" H is DENIED AS MOOT.
Signed by Judge Karen K. Caldwell on 9/5/2018. (RCB)cc: COR, Keyes
I via U.S. mail (Entered: 09/05/2018)

09/26/2018

14

INFORMATION COPY OF ORDER/JUDGMENT of USCA as to 7
I Notice of Appeal filed by Ellis Keyes: REVERSED district court's
I judgment and REMAND the case for further proceedings. (Attachments:
| # 1 Cover Letter - Mandate to Issue)(MJY) (Entered: 09/26/2018)

09/28/2018

J_5 I MOTION To Set Jury Trial and MOTION - Application for Stay by Ellis
I Keyes, Pro Se. Motions referred to P SO. (Attachments: # 1 Supplementre 6CCA & Ky Supreme Court rulings)(MJY) (Entered: 09/28/2018)
I ***MOTION SUBMITTED TO CHAMBERS of PSO for review: re 15
I MOTION for Order To Set Jury Trial and MOTION - Application for
Stay by Ellis Keyes, Pro Se by Ellis Keyes. (MJY) (Entered:
09/28/2018)

09/28/2018

10/11/2018

16 I ORDER: Pla Ellis Keyes's "Motion to Set Jury Trial" and "Application
I for Stay" 15 are DENIED WITHOUT PREJUDICE as premature.
Signed by Judge Karen K. Caldwell on 10/11/2018. (RCB)cc: COR,
Keyes via U.S. mail (Entered: 10/11/2018)

10/18/2018

17

MANDATE of USCA as to 7 Notice of Appeal; Appeal REVERSED
district court's judgment and REMAND the case for further proceedings.
| (Attachments: # 1 Cover Letter) (TDA) (Entered: 10/18/2018)

10/22/2018

***FILE SUBMITTED TO CHAMBERS of PSO for review: 17 USCA
Mandate; Appeal REVERSED and REMANDED for further
proceedings. (TDA) (Entered: 10/22/2018)

11/08/2018

Clerk's Note: Blank summons form mailed to pro se plaintiff per his
telephonic request. (RCB) (Entered: 11/08/2018)

11/09/2018

1_8 I Summons Issued as to Edison Banks; Summons issued and returned to
Mr. Keyes via pick-up from Office of Clerk. (TDA) (Entered:
I 11/09/2018)

11/09/2018

19

11/13/2018

20 I ORDER: Pla Ellis Keyes's "Motion for Summary Judgment" (R. 19 ) is
DENIED WITHOUT PREJUDICE as premature. Signed by Judge
Karen K. Caldwell on 11/13/2018. (TDA) cc: Keyes via US Mail
(Entered: 11/13/2018)

11/26/2018

21

MOTION for Summary Judgment, file by Ellis Keyes pro se. Motions
referred to PSO. (TDA) (Entered: 11/09/2018)

SUMMONS Returned Executed by Ellis Keyes via Certified Mail &
Personal Service to Edison Banks served on 11/14/2018 & 11/19/2018,
I answer due 12/5/2018. (TDA) (Entered: 11/26/2018)

https://ecf.kyed.circ6.dcn/cgi-bin/DktRpt.pl7951461214591906-L_l_0-l

9/9/2020

■CM/ECF U.S. Eastern District of Kentucky Version 6.3.2

Page 4 of 10

12/12/2018

22 I MOTION for Entry of Default by bills Keyes pru se. Motions r-eferred
to PSO. (TDA) (Entered: 12/12/2018)

12/17/2018

23

ORDER: Keyes's "Motion for Entry of Default" (R. 22 ) is DENIED
WITHOUT PREJUDICE. Signed by Judge Karen K. Caldwell on
12/17/2018. (TDA) cc: Keyes via US Mail (Entered: 12/17/2018)

12/26/2018

24

MOTION for Reconsideration re 23 Order on Motion for Entry of
I Default, filed by Ellis Keyes pro se. Motions referred to PSO.
(Attachments: # \ Letcher Circuit Opinion and Order, # 2 USCA Sixth
Circuit Order, # 3 Supreme Court of KY Notice, # 4 USDC Order
entered 12/17/18) (TDA) (Entered: 12/26/2018)

12/26/2018

***MOTION SUBMITTED TO CHAMBERS of PSO for review: re 24
MOTION for Reconsideration re 23 Order on Motion for Entry of
Default by Ellis Keyes. (TDA) (Entered: 12/26/2018)

01/02/2019

25 I NOTICE of service by Ellis Keyes re 2i Summons Returned Executed
(Attachments: # 1 Envelope Postmarked 12-27-18)(MJY) (Entered:
01/02/2019)

01/03/2019

26

01/15/2019

27 I MOTION to Dismiss, MOTION for Sanctions by Edison Banks to Bar
Prospective Filings. Motions referred to PSO. (Attachments: # i
Proposed Order)(Collins, Adam) Modified text on 1/16/2019 (TDA).
(Entered: 01/15/2019)

01/17/2019

28 I RESPONSE to Motion re 27 MOTION to Dismiss, filed by Ellis Keyes
pro se. (TDA) (Entered: 01/17/2019)

01/24/2019

29 I ORDER: Banks's "Motion to Dismiss and to Bar Prospective
Filings" (R. 27) is DENIED WITHOUT PREJUDICE. Signed by
Judge Karen K. Caldwell on 1/24/2019. (TDA) cc: COR & Keyes via
US Mail (Entered: 01/24/2019)

01/31/2019

30 I MOTION for Summary Judgment, filed by Ellis Keyes pro se. Motions
referred to PSO. (TDA) (Entered: 01/31/2019)

02/22/2019

ORDER: Keyes' motion for reconsideration 24 is DENIED. Signed by
Judge Karen K. Caldwell on 1/3/2019. (RCB)cc: COR, Keyes via U.S.
mail (Entered: 01/03/2019)

***MOTION SUBMITTED TO CHAMBERS of Judge Caldwell for
review: re 30 MOTION for Summary Judgment by Ellis Keyes. (TDA)
(Entered: 02/22/2019)

02/22/2019

31 I MOTION for Extension of Time to file Response to Motion for Summary
I Judgment by Edison Banks. Motions referred to P SO. (Collins, Adam)
(Additional attachment(s) added on 2/25/2019: # I Proposed Order)
(TDA). Modified text on 3/4/2019 (TDA). (Entered: 02/22/2019)

02/22/2019

NOTICE OF DEFICIENCY TO ADAM COLLINS re 3J_ MOTION for
Extension of Time; attorney failed to submit a proposed order as an
electronic attachment to the motion. Entry by attorney; within 7 calendar
days, prepare a document entitled "Notice of Filing", file the Notice

https ://ecf.kyed.circ6.dcn/cgi-bin/DktRpt.pl?951461214591906-L_l _0-1

9/9/2020

' CM/ECF U.S. Eastern District of Kentucky Version 6.3.2

Page 5 of 10

I using the event "Notice of Filing," attach the proposed order, and create
a link to the related docket entry, cc: COR (TDA) (Entered: 02/22/2019)
02/22/2019

32

02/28/2019

33 I RESPONSE to Motion for Summary Judgment filed by Edison Banks.
(Attachments: # 1 Proposed Order)(Collins, Adam) (Entered:
02/28/2019)

03/04/2019

NOTICE OF FILING by Edison Banks re 31 MOTION for Extension of
I Time by Edison Banks , Notice of Deficiency, (Attachments: # 1
| Proposed Order)(Collins, Adam) (Entered: 02/22/2019)

***MOTION SUBMITTED TO CHAMBERS of PSO for review: re 3J_
MOTION for Extension of Time to file Response to Motion for
Summary Judgment, by Edison Banks. (TDA) (Entered: 03/04/2019)

03/05/2019

34

03/18/2019

35 I MOTION for Entry of Default, filed by Ellis Keyes pro se. Motions
[ referred to PSO. (TDA) (Entered: 03/18/2019)

03/25/2019

36 I RESPONSE to Requestfor Entry ofDefault filed by Edison Banks.
(Attachments: # l Proposed Order)(Collins, Adam) (Entered:
03/25/2019)

03/26/2019

37 I SECOND MOTION for Extension of Time to File Answer by Edison
Banks. Motions referred to PSO. (Attachments: # l Proposed Order, # 2
Exhibit Answer)(Collins, Adam) Modified text on 3/26/2019 (TDA)
(Entered: 03/26/2019)

03/26/2019

38

03/26/2019

03/27/2019

ORDER: 1. Edison Bankss motion for an extension of time R. 31 is
I GRANTED. 2. Banks shall file an answer to the complaint on or before
I March 15, 2019. This deadline will not be extended absent exigent
circumstances. Signed by Judge Karen K. Caldwell on 3/5/19.(MJY) cc:
| COR & Keyes via U.S. Mail. (Entered: 03/05/2019)

TENDERED ANSWER to Complaint by Edison Banks. (Collins, Adam)
| Modified text on 3/26/2019 (TDA). (Entered: 03/26/2019)
NOTICE OF DEFICIENCY TO HON. ADAM COLLINS re 38 Answer:
Error: This document was filed as an attachment to [#] motion for leave
and filed as a separate document. Correction: the clerk tendered the
Answer. An electronically submitted document requiring leave of Court
shall be filed only as an attachment to the motion and not as a separate
entry. No further action required by counsel, cc: COR (TDA) (Entered03/26/2019)

39

ORDER: 1. Ellis Keyes's motion for summary judgment 30 is DENIED.
2. Ellis Keyes's "Request for Entry of Default Rule 55" 35 is DENIED.
I 3. Banks's motion for an extension of time to file his answer 37 is
I GRANTED. 4. Clerk shall FILE Banks's tendered answer 38 in the
I record. 5. This matter is REFERRED to USMJ to conduct all further
I proceedings, including preparing proposed findings of fact and
conclusions of law on any dispositive motions. Clerk shall ASSIGN this
matter to Magistrate Judge. Signed by Judge Karen K. Caldwell on
[3/27/2019. (RCB)cc: COR, Keyes via U.S. mail (Entered: 03/27/2019)

https://ecf.kyed.circ6.dcn/cgi-bin/DktRpt.pl7951461214591906-L 1 0-1

9/9/2020

=CM/ECF U.S. Eastern District of Kentucky Version 6.3.2

03/27/2019

-ANS-WEk to T~COmulamEyvritli .Tun'

Page 6 of 10

FHicrm

pursuant to 39 Order. (RCB) (Entered: 03/27/2019)
03/27/2019

£

41

03/27/2019

(Court only) CASE ASSIGNMENT. (RCB) (Entered: 03/27/2019)
***FILE SUBMITTED TO CHAMBERS of Judge Atkins for review:
39 Order, Case Referred to Magistrate Judge (RCB) (Entered03/27/2019)

03/28/2019

42 I ORDER FOR MEETING AND REPORT: 1) w/in 30 days parties hold
Rule 26 Meeting. 2) At time of meeting, parties exchange Rule 26(a)(1),
and make supplemental disclosures required by Rule 26(e). 3) w/in 10
days after meeting the parties shall file a joint status report, see items a-i.
4. Parties advise Court of parent corporations, subsidiaries, affiliates,
members and/or partners associated. Signed by Magistrate Judge Edward
B. Atkins on 3/28/2019. (Attachments: # 1 AO 85 Consent Form) (TDA)
| cc: COR & Keyes via US Mail. (Entered: 03/28/2019)

03/28/2019

43

03/28/2019

44 I NOTICE OF APPEAL as to 39 Order, filed by Ellis Keyes pro se. Filing
I fee $505; Receipt #7005576. cc: COR, 6CCA & Keyes via hand delivery
| with docket sheet. (TDA) (Entered: 03/28/2019)

04/02/2019

45 I USCA Case Number 19-5311; Case Manager Amy Gigliotti for 44
Notice of Appeal filed by Ellis Keyes. (TDA) (Entered: 04/02/2019)

04/19/2019

46

MOTION to Clarify by Edison Banks , MOTION to Stay by Edison
Banks Motions referred to Edward B. Atkins. (Attachments: # l
I Proposed Order)(Collins, Adam) (Entered: 04/19/2019)

04/22/2019

47

ORDER: Dfts Motion for Clarification, (R. 46 ), is GRANTED to extent
that Court's Order for Meeting and Report, (R. 42 ), is VACATED,
I PENDING THE APPEAL. Signed by Magistrate Judge Edward B
I
Atkins on 4/22/2019. (TDA) cc: COR & Keyes via US Mail (Entered:
04/22/2019)

04/22/2019

48 I ORDER of USCA as to 44 Notice of Appeal; the appeal is
DISMISSED. (Attachments: # 1 Cover Letter) (TDA) (Entered04/22/2019)

04/23/2019

. 49

REPLY to Response re 35 REQUEST for Entry of Default, filed by Ellis
| Keyes pro se. (TDA) (Entered: 03/28/2019)

ORDER FOR REPORT OF PARTIES' PLANNING MEETING: Court
of Appeals dismissed appeal with no mandate to issue. 48 . Order to
I Meet and Confer will be reinstated in accordance with this Order. 1.
I NLT 14 days, conduct meeting of parties required by Rule 26(f). 2. At
I meeting, exchange disclosures required by Rule 26(a)( 1), supp when
I required by Rule 26(e). 3. NLT 10 days after meeting, file written
I JOINT report outlining proposed discovery plan. This report conform
I to FRCP Appendix Form 52, and include: a-h; i) whether parties
I consent to jurisdiction of a magistrate judge. Consent forms
I attached and forms signed by all parties filed NLT date joint status
I report is due. Signed by Magistrate Judge Edward B. Atkins on

https://ecf.kyed.circ6.dcn/cgi-bin/DktRpt.pl7951461214591906-L 1 0-1

9/9/2020

' CM/ECF U.S. Eastern District of Kentucky Version 6.3.2

Page 7 of 10

•4/23/20Jy. (AttaclUiicnts, H l.CuiBenHe-MflfrJ4^*e-E^yRrRWj COR, Keyes via U.S. mail (Entered: 04/23/2019)
04/23/2019

50 I NOTICE, Consent, and Reference to a Magistrate Judge by Edison
Banks (Collins, Adam) Modified text on 4/24/2019 (RCB) (Entered104/23/2019)

05/23/2019
05/24/2019

06/03/2019
09/27/2019

***FILE SUBMITTED TO CHAMBERS of Judge Atkins for review:
49 Order For Meeting and Report. (TDA) (Entered: 05/23/2019)
— I SCHEDULING ORDER: (1) All fact and expert discovery be
completed by SEPTEMBER 20,2019; (2) parties shall supplement
disclosures and responses to discovery required by FRCP 26(e); (3) All
dispositive motions, including Daubert motions, shall be filed by
OCTOBER 21, 2019. The response and reply time per LR 7.1(c); (4)
Discovery Limitations: see items a-c. (5) parties shall observe the
I following directives regarding the filing of discovery materials: see items
\a&b. (6) Status Report - on or before SEPETMEBER 20, 2019 (close
of discovery) parties file report re progress of case and status of
I settlement negotiations. Signed by Magistrate Judge Edward B. Atkins
on 5/24/2019. (TDA) cc: COR & Keyes via US Mail (Entered05/24/2019)
52 I ORDER of USCA as to 44 ; DENYING appellant's petition for en banc
rehearing. (Attachments: # 1 Cover Letter) (TDA) (Entered: 06/03/2019)
I
FILE SUBMITTED TO CHAMBERS of Judge Atkins for review:
5j Scheduling Order - nothing filed. (TDA) (Entered: 09/27/2019)

10/15/2019

53 I MOTION for Trial, filed by Ellis Keyes pro se. Motions referred to
| Edward B. Atkins. (TDA) (Entered: 10/15/2019)

10/16/2019

54

ORDER: Keyes's Motion (R. 53 ) is DENIED WITHOUT
PREJUDICE as premature. Signed by Magistrate Judge Edward B
Atkins on 10/16/2019. (TDA) cc: COR & Keyes via US Mail (Entered10/16/2019)

10/21/2019

55

MOTION to Dismiss by Edison Banks Motions referred to Edward B.
^tldns^ (Attachments: # 1 Proposed Order)(Collins, Adam) (Entered:

10/23/2019

56

MOTION for Reconsideration re 54 Order, filed by Ellis Keyes pro se.
Motions referred to Edward B. Atkins. (TDA) (Entered: 10/23/2019)

10/28/2019

57

RESPONSE to 55 MOTION to Dismiss, filed by Ellis Keyes pro se
(TDA) (Entered: 10/28/2019)

11/18/2019

"'MOTION SUBMITTED TO CHAMBERS of Judge Atkins for
review: re 55 MOTION to Dismiss by Edison Banks. (TDA) (Entered:
11/18/2019)

11/18/2019

'"MOTION SUBMITTED TO CHAMBERS of Judge Caldwell for
review: re 56 MOTION for Reconsideration 54 Order, by Ellis Keyes.
(TDA) (Entered: 11/18/2019)

https://ecfkyed.circ6.dcn/cgi-bin/DktRpt.pl7951461214591906-L 1 0-1

9/9/2020

’ CM/ECF U.S. Eastern District of Kentucky Version 6.3.2

Page 8 of 10

11/25/2019

21

UKDEK: Banks's Motror(ft7^-44s-SEXEQE_STATIJS HEAP TNG
before undersigned on FRIDAY DECEMBER 6^2019 at 10:30“ A.MTm
I PIKEVILLE, KY to clarify claims being asserted by Keyes and basis of
dispositive motion by Banks. Signed by Magistrate Judge Edward B.
I Atkins on 11/25/2019. (TDA) cc: COR & Keyes via US Mail (Entered11/25/2019)

11/27/2019

59

ORDER: the status hearing is RESCHEDULED for MONDAY
DECEMBER 9, 2019 at 10:30 A.M. in PIKEVILLE, KY. Signed by
Magistrate Judge Edward B. Atkins on 11/27/2019. (TDA) cc: COR &
| Keyes via US Mail (Entered: 11/27/2019)

12/09/2019

60 MINUTE ENTRY ORDER FOR STATUS CONFERENCE:

'

I proceedings held on 12/9/2019 before Magistrate Judge Edward B.
Atkins; Parties are given 30 days within which to file any additional
I briefs into the record, addressing the alleged procedural and substantive
Due Process violations. Signed by Magistrate Judge Edward B. Atkins.
(Tape #KYED-PIK_7-18-cv-23_20191209_095558) (TDA) cc: COR
(Entered: 12/09/2019)

12/17/2019

61 I ORDER re 56 : Court must rule on dispositive motions before matter
I may proceed to trial. Accordingly, plas objection to magistrate judge's
I order is OVERRULED. Signed by Judge Karen K. Caldwell on
I 12/17/2019. (TDA) cc: COR & Keyes via US Mail. (Entered12/17/2019)

12/27/2019

62

12/30/2019

63

MOTION for Summary Judgment, MOTION to Set for Trial, by Ellis
Keyes pro se. Motions referred to Edward B. Atkins. (TDA) (EnteredI 12/30/2019)

01/03/2020

64

RESPONSE to Defendant's Motion re 62 MOTION for Summary
Judgment, filed by Ellis Keyes pro se. (Attachments: # 1_ Envelope
Postmarked 12/31/19) (TDA) (Entered: 01/03/2020)
I ***MOTION SUBMITTED TO CHAMBERS of Judge Atkins for
review: re 62 MOTION for Summary Judgment by Edison Banks (TDA)
(Entered: 01/22/2020)

01/22/2020

01/23/2020

03/23/2020

MOTION for Summary Judgment by Edison Banks Motions referred to
Edward B. Atkins. (Attachments: # 1 Proposed Order)(Collins, Adam)
(Entered: 12/27/2019)

***MOTION SUBMITTED TO CHAMBERS of Judge Atkins for
review: re 63 MOTION for Summary Judgment, MOTION to Set for
Trial by Ellis Keyes. (TDA) (Entered: 01/23/2020)
65

GENERAL ORDER 20-03 - COURT OPERATIONS RELATED TO
COVID-19: 1. General Order does not apply to ongoing trials; 2.
Continuation of civil & criminal trials per General Order 20-03 extended
I to civil & criminal trials set to begin 5/1/2020. 3. hearings in criminal
cases through 5/1/2020, motion hearings, change of plea, & sentencings
CONTINUED GENERALLY, subject to further orders. 4. Initial
appearances & detention hearings proceed via remote attendance to

https://ecf.kyed.circ6.dcn/cgi-bin/DktRpt.pl7951461214591906-L 1 0-1

9/9/2020

c CM/ECF U.S. Eastern District of Kentucky Version 6.3.2

Page 9 of 10

exten
s cont. after 5/1 /20. 5. Except
TROs, prel. inj., & emergency matters, in-person hrgs m civil'cases “—
through 5/1/2020 CONTINUED GENERALLY. Assigned judge may
proceed by means not requiring personal appearance. 6. Absent
exceptional circumstances, hrgs- in emergency matters shall be conducted
by means not requiring in-person attendance. 7. If a detention facility
informs USM inmate is ill, inmate shall not be brought to Courthouse. 8.
Naturalization ceremonies through 5/1/2020 are CONTINUED
GENERALLY. 9. Settlement conferences through 5/1/2020 are
CONTINUED GENERALLY. 10. Misd. & petty offense dockets
through 5/1/2020 CONTINUED GENERALLY. 11. For complaints
filed per False Claims Act, which remain under seal, US granted add'l 60
days to intervene or notify Court that it declines. 12. Courts remain open.
Eff. 3/24/2020-5/1/2020 Courthouse open Mon-Fri 10 AM-2 PM. 13.
Visitor restrictions apply & will be screened. 14. Gen. Order 20-02
remains in effect. 15. Court may issue further directives. Signed by
Judge Danny C. Reeves on 3/23/2020. (TDA)cc: COR and Ellis Keyes
by US Mail (Entered: 04/14/2020)
04/22/2020

66 I RECOMMENDED DISPOSITION: 1. Banks' motion to dismiss (R. 55 )
be DENIED; 2. Banks' motion for summary judgment (R. 62 ) be
I GRANTED; and 3. Keyes' motion for summary judgment and motion to
I set a trial date (R. 63 ) be DENIED. Objections must be filed w/in 14
I days. A party may respond to another party's objections w/in 14 days.
Signed by Magistrate Judge Edward B. Atkins on 4/22/2020. (TDA) cc:
COR and Ellis Keyes by US Mail (Entered: 04/22/2020)

04/29/2020

67

OBJECTIONS to 66 Report and Recommendations, filed by Ellis Keyes
pro se. (TDA) (Entered: 04/29/2020)

05/14/2020

***MOTION SUBMITTED TO CHAMBERS of Judge Caldwell for
review: re 66 REPORT AND RECOMMENDATIONS (TDA) (Entered:
05/14/2020)

09/02/2020

68 I OPINION & ORDER: 1) the magistrate judge's recommended
I disposition (DE 66 ) is ADOPTED as opinion of Court with exception of
magistrate judge's finding that, "[i]n response to striking his name from
the ballot, Keyes filed this instant action and then also appealed the state
I trial court's ruling." (DE 66 at 6.) Instead, Court finds Keyes filed action
before Letcher Circuit Court entered an order that prohibited Keyes'
I name from appearing on the ballot. That finding makes no difference in
outcome of magistrate judge's recommendation; 2) Banks' motion to
I dismiss (DE 55 ) is DENIED; 3) Banks' motion for summary judgment
(DE 62 ) is GRANTED; and 4) Keyes' motion for summary judgment
and motion to set a trial date (DE 63 ) are DENIED; and 5) judgment
I will be entered consistent with this opinion. Signed by Judge Karen K.
I Caldwell on 9/2/2020. (TDA) cc: COR and Ellis Keyes by US Mail
(Entered: 09/02/2020)

09/02/2020

69 I JUDGMENT: 1) Dft Edison Banks' motion for summary judgment (DE
62 ) is GRANTED; 2) judgment is entered in favor of dft Edison Banks
on all claims asserted in this action; 3) this judgment is FINAL and

https ://ecf.kyed.circ6.dcn/cgi-bin/DktRpt.pl?951461214591906-L_l_0-1

9/9/2020

CM/ECF U.S. Eastern District of Kentucky Version 6.3.2

Page 10 of]0

— - APPEALABLE; and 4) this matter is STRICKEN from the Courts active
docket. SignedbyJudgeT^areh~K7tfrrHwe44-on-2^2Z20201_(TpA) cc:
COR and Ellis Keyes by US Mail (Entered; 09/02/2020)
09/09/2020

09/09/2020

09/09/2020

-£

70

NOTICE OF APPEAL as to 68 Memorandum Opinion & Order and 69
Judgment, by Ellis Keyes, Pro Se. (SHORT RECORD MAILED), cc;
COR, 6CCA (MJY) (Entered; 09/09/2020)

71

MOTION for Leave to Appeal in forma pauperis by Ellis Keyes, Pro Se.
Motions referred to Edward B. Atkins. (Attachments: # l Affidavit
Accompanying Motion)(MJY) (Entered: 09/09/2020)
**'MOTION SUBMITTED TO CHAMBERS of Karen Caldwell for
review: re 71 MOTION for Leave to Appeal in forma pauperis by Ellis
Keyes, Pro Se. (MJY) (Entered: 09/09/2020)

https://ecf.kyed.circ6.dcn/cgi-bin/DktRpt.pl7951461214591906-L_l_0-l

9/9/2020

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

18-379

Ellis Keyes
V.

Edison Banks, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
■ Please enter my appearance as Counsel of Record for all respondents.
■ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondents):

Commonwealth of Kentucky

■ I am a member of the Bar of the Supreme Court of the United States.
■ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date:

Is S. Travis Mayo

October 10, 2018

(Type or print) Name

S. Travis Mayo
■ Mr.

Firm

■ Mrs.

■ Miss

Office of the Attorney General

Address

700 Capitol Ave., Suite 118

City & State
Phone

■ Ms. '

Frankfort, Kentucky

(502) 696-5662

Zip
Email

40601

travis.mayo@ky.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Ellis Keyes, Propria Persona, P.O. Box 1073, Whitesburg, KY 41858-1073

Supreme Court of the United States
_
Office of the Clerk
WasKTngt
543-0001
uCOli. _

December 3, 2018

________________ _

Clerk of the Court"
(202) 479-3011

Mr. Ellis Keyes
P.O. Box 1073
Whitesburg, KY 41858-1073

Re: Ellis Keyes
v. Edison G. Banks, II
No. 18-379

Dear Mr. Keyes:
The Court today entered the following order in the above-entitled case:
The petition for a writ of certiorari is denied.

Sincerely,

Scott S. Harris, Clerk

—-

